                            SOCIAL SECURITY
                             Office of the Inspector General

                                      April 22, 2010

The Honorable Earl Pomeroy
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Pomeroy:

On April 5, 2010, we received a request from the House Committee on Ways and
Means, Subcommittee on Social Security, to issue an interim report on the first in/first
out process in place at the Office of Disability Adjudication and Review (ODAR) and
conduct a preliminary examination of the extent to which ODAR is complying with this
policy. This report represents our response to this request.

The same letter also asked my office to conduct a more extensive review that examines
local, regional, and national trends regarding first in/first out scheduling procedures. My
auditors are conducting work in this area as well, and we will share this report with you
once completed.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Sam Johnson, Ranking Member, Subcommittee on Social Security.

If you have any additional questions, please call me, or have your staff contact Misha
Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                        Sincerely,



                                                        Patrick P. O’Carroll, Jr.
                                                        Inspector General
Enclosure

cc:
Michael J. Astrue
Sam Johnson


              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
                            SOCIAL SECURITY
                             Office of the Inspector General

                                      April 22, 2010

The Honorable Sam Johnson
Ranking Member, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

On April 5, 2010, we received a request from the House Committee on Ways and
Means, Subcommittee on Social Security, to issue an interim report on the first in/first
out process in place at the Office of Disability Adjudication and Review (ODAR) and
conduct a preliminary examination of the extent to which ODAR is complying with this
policy. This letter represents our response to this request.

The same letter also asked my office to conduct a more extensive review that examines
local, regional, and national trends regarding first in/first out scheduling procedures. My
auditors are conducting work in this area as well, and we will share this report with you
once completed.

Thank you for the opportunity to provide the Committee with the requested information.
To ensure the Agency is aware of the information provided to your office, we are
forwarding a copy of this report to the Agency. I have also sent a similar response to
Earl Pomeroy, Chairman, Subcommittee on Social Security.

If you have any additional questions, please call me, or have your staff contact Misha
Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                                        Sincerely,



                                                        Patrick P. O’Carroll, Jr.
                                                        Inspector General
Enclosure

cc:
Michael J. Astrue
Earl Pomeroy

              SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
CONGRESSIONAL RESPONSE
       REPORT

          Scheduled Hearings

                 A-12-10-20154




                     April 2010


 SOCIAL SECURITY ADMINISTRATION   BALTIMORE, MD 21235-0001
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                       Background
OBJECTIVE
The objectives of our review were to assess the first in/first out (FIFO) process in place
at the Office of Disability Adjudication and Review (ODAR) and conduct a preliminary
examination of the extent to which the Social Security Administration (SSA) was
complying with this policy.

BACKGROUND
ODAR administers the hearings and appeals program for the SSA. Approximately
1,300 administrative law judges (ALJ) working at ODAR conduct hearings and issue
decisions. ODAR supports 142 hearing offices and 4 National Hearing Centers (NHC) 1
in 10 regions and maintains satellite and remote sites where ALJs also conduct
hearings.

The hearing process begins after a benefit applicant has been denied at a State
Disability Determination Services (DDS) office and files a request for a hearing before
an ALJ. Once the request for hearing is received, the case is placed into a “master
docket” containing key information on all cases received by the hearing office and is
then assigned to an ALJ for processing and an eventual hearing, if appropriate. 2
ODAR’s Hearings, Appeals and Litigation Law (HALLEX) Manual states, “The Hearing
Office Chief ALJ generally assigns cases to ALJs from the master docket on a rotational
basis, with the earliest (i.e., oldest) [requests for hearings] receiving priority, unless
there is a special situation which requires a change in the order in which a case is
assigned.” 3




1
 ODAR established NHCs to assist with processing cases in heavily impacted hearing offices. ODAR
opened NHCs in Falls Church, Virginia; Albuquerque, New Mexico; Chicago, Illinois; and Baltimore,
Maryland. The Agency also plans to open a fifth NHC in St Louis, Missouri.
2
 Not every request for hearing leads to a hearing. For example, an ALJ or senior attorney may make an
on-the-record (OTR) allowance without the need of a hearing. In addition, some cases are dismissed
before a hearing. According to ODAR, approximately 15 percent of the hearing cases in FY 2009 were
OTRs, and another 16 percent were dismissed.
3
    SSA, HALLEX I-2-1-55, A—Assignment of Service Area Cases to Administrative Law Judges.



Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                       1
EXCEPTIONS TO FIFO

The HALLEX Manual specifies situations where FIFO does not apply. 4 These include
(1) critical cases; (2) Appeals Council and court remands; (3) dismissals; and (4) waived
oral or advance notice of a hearing. 5 The six situations that warrant the designation as
a critical case include the following. 6

      •   The claimant’s illness is terminal. 7
      •   A disability case for any military personnel injured on active duty.
      •   A case is identified as a Compassionate Allowance8 case.
      •   The claimant may be suicidal or homicidal/potentially violent.
      •   The claimant is without, and is unable to obtain, food, medicine, or shelter—often
          termed “dire need.”
      •   The case has been delayed an inordinate amount of time, and there is a public,
          congressional, or other high priority inquiry on the case.




4
    See Appendix B for a full listing of exceptions to FIFO.
5
    SSA, HALLEX I-2-1-55, A.
6
    SSA, HALLEX I-2-1-40, B—Critical Cases.
7
 A terminal Illness is described as an untreatable impairment that cannot be reversed and is expected to
end in death.
8
 Compassionate Allowances are granted for diseases of the most obviously disabled individuals based
on readily available, objective medical information.


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                      2
                                                  Results of Review
Our review of 55 cases received at 3 hearing offices with the same hearing request date
demonstrates wide variances in the processing of these cases. ODAR management
stated that the hearing offices follow FIFO when they can, but various factors can alter
the scheduling of hearing cases, including critical cases, remote site hearings, and
incomplete or lost case files. Moreover, various factors can complicate scheduling,
including coordinating with multiple parties involved in the hearing as well as locating
sufficient hearing space. ODAR is attempting to improve the timely processing of cases
through various initiatives, including the Aged Case initiative, expanded electronic
processes, and new hearing offices.

HEARING REQUESTS AT THREE OFFICES
To determine whether hearing cases were moving through the system at the same rate
and consistent with FIFO, we reviewed hearing requests dated October 13, 2009 at
three hearings offices—McAlester, Oklahoma; Orland Park, Illinois; and Sacramento,
California. We found that the 55 cases received on the same day were in varying
stages in the 3 offices, with about 63 percent of the cases still awaiting a scheduled
hearing date and 5 percent of the cases already receiving a decision (see Figure 1).

            Figure 1: Status of Hearing Requests from October 13, 2009
                                (As of April 9, 2010)


                 5%   5%
                                     11%
                                                      Not Scheduled - Unworked
                                                      Not Scheduled - In Process
                                            43%       Not Scheduled - Awaiting Rescheduling
                                                      Scheduled - Awaiting Hearing
     27%                                              Scheduled - Hearing Held
                                                      Scheduled - Decision Issued




                9%



We found that a variety of factors contributed to the range of processing time on these
55 cases. Factors delaying a hearing included unavailable staff, rescheduled hearings,




Congressional Response Report: Scheduled Hearings (A-12-10-20154)                             3
and video teleconferencing (VTC) as well as hearing office capacity. 9 We also found
2 critical cases among the 55 that already had a hearing and were being finalized, and
1 other critical case was scheduled for a hearing. These 55 cases represent 1 day
among three different-sized hearing offices in three Regions with different workloads
and management, so extrapolating from these cases presents a number of risks.
However, the 55 cases demonstrate that the receipt of a hearing request on the same
day does not equate to a hearing before an ALJ on the same date.

MCALESTER HEARING OFFICE

Of the nine cases in the McAlester Hearing Office 10 with a hearing request date of
October 13, 2009, one case (11 percent) was not scheduled for a hearing at the time of
our review (see Figure 2). The other eight cases (89 percent) had scheduled hearings,
and one had an issued decision.

                  Figure 2: Status of Hearing Requests at the McAlester
                           Hearing Office from October 13, 2009
                                   (As of April 9, 2010)




     67%                                   11%
                                                             Not Scheduled - Awaiting Rescheduling

                                                             Scheduled - Awaiting Hearing

                                                             Scheduled - Hearing Held

                                              11%            Scheduled - Decision Issued



                                        11%


Concerning the one unscheduled hearing, we found that the case had been previously
scheduled for a February hearing, but the claimant did not appear so the hearing was
postponed. Regarding the eight cases currently listing a scheduled hearing date, two
were dire need critical cases–one case had a decision issued while the other had a
hearing and was being finalized. The critical cases had hearings scheduled in March
and April 2010, whereas the remaining six cases were scheduled for May and June
2010.


9
 Our full review of this area will include a statistical sample of cases and provide more in depth analysis
of trends throughout the country.
10
  The McAlester Hearing Office has three ALJs, making it a small-sized hearing office. See Appendix C
for our methodology.


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                             4
ORLAND PARK HEARING OFFICE

Of the 22 cases in the Orland Park Hearing Office 11 with a hearing request date of
October 13, 2009, 16 cases (73 percent) were not scheduled for a hearing at the time of
our review (see Figure 3). The remaining six cases (27 percent) had been scheduled
and were awaiting a hearing.

                Figure 3: Status of Hearing Requests at the Orland Park
                          Hearing Office from October 13, 2009
                                  (As of April 9, 2010)
                                      9%
       27%

                                                           Not Scheduled - Unworked
                                                           Not Scheduled - In Process
                                                           Not Scheduled - Awaiting Rescheduling
                                                           Scheduled - Awaiting Hearing

       5%                                      59%




We found that 15 of those 16 cases had never been scheduled for a hearing, while 1
case was waiting to be scheduled for a supplemental12 hearing because the claimant
was seeking representation.

Of the 15 still awaiting their first scheduled hearing date, 13 were being processed by
the office, including 3 awaiting review from a senior attorney adjudicator, 13 and the
remaining 2 were not being worked. We asked staff at the Orland Park Hearing Office
about these five cases awaiting processing, and they stated that they often leave cases
for a senior attorney adjudicator to review when they are unable to start other
processing. If further development comes in, then they can request an interrogatory 14

11
  The Orland Park Hearing Office has eight ALJs, making it a medium-sized office. See Appendix C for
our methodology.
12
  Circumstances may require that an ALJ adjourn a hearing in progress and continue it at a later date,
conduct a supplemental hearing, or reopen the record to receive additional evidence. See HALLEX I-2-6-
80—Continued or Supplemental Hearing.
13
  ODAR’s Senior Attorney Adjudicator initiative was implemented in November 2007. The initiative is
designed to increase adjudicator capacity by allowing non-ALJs to issue fully favorable OTR decisions,
thereby expediting the process and conserving ALJ resources for more complex cases that require a
hearing.
14
  In preparing for a hearing, the ALJ, the claimant, or the claimant's representative, with the ALJ’s
approval, may submit written interrogatories which require written answers to specific questions by a DDS
physician or other DDS personnel (including a consulting source).


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                        5
from a medical expert (ME). As for the two unworked cases, after we contacted the
hearing office, the cases were moved to a pending category awaiting case pulling. 15

Concerning the six cases currently listing a scheduled hearing date, one was a critical
case scheduled for April 2010, 16 three had hearings scheduled in May 2010, and two
had been part of a rocket docket 17 hearing and had been already scheduled for a
supplemental hearing in July 2010.

SACRAMENTO HEARING OFFICE

Of the 24 cases in the Sacramento Hearing Office 18 with a hearing request date of
October 13, 2009, 17 cases (71 percent) were not scheduled for a hearing at the time of
our review (see Figure 4). The remaining seven cases (29 percent) had been
scheduled, with two having issued decisions.

                    Figure 4: Status of Hearing Requests at the Sacramento
                              Hearing Office from October 13, 2009
                                      (As of April 9, 2010)
                        8%
                8%                           17%


                                                             Not Scheduled - Unworked

      13%                                                    Not Scheduled - In Process
                                                             Not Scheduled-Awaiting Resheduling
                                                             Scheduled - Awaiting Hearing
                                                      41%
                                                             Scheduled - Hearing Held
                                                             Scheduled - Decision Issued
         13%




15
  Pulling involves organizing all of the medical documents chronologically, arranging documents in
appropriate sections of the case file, numbering documents, identifying duplicate documents, and
ensuring all pertinent documents are appropriately labeled in a case folder prior to holding a hearing
before an ALJ.
16
     This was a potentially suicidal critical case.
17
   The hearing was scheduled as a rocket docket case. A rocket docket refers to scheduling several
cases of unrepresented claimants at the same date and time for the same ALJ since these cases are
likely to be dismissed or postponed.
18
 The Sacramento Hearing Office has 14 ALJs, making it a large-sized office. See Appendix C for our
methodology.


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                        6
Of the 17 hearing cases, we found that 14 had never been scheduled for a hearing,
whereas the remaining 3 cases were waiting to be rescheduled because of issues with
the claimant or the claimant’s representative. 19

Of the 14 still awaiting their first scheduled hearing date, 10 were being processed by
the office, and 4 were still awaiting processing. When we questioned the Sacramento
Hearing Office about the four cases, a hearing office manager stated that three of the
cases were set to be scheduled as unexhibited cases, which is sometimes necessary to
keep ALJs’ dockets filled when there are staffing shortages. However, just before these
cases were scheduled, the office obtained assistance from other hearing offices,
allowing for these cases to be temporarily transferred outside of the office for work up.
The fourth case was improperly listed as unworked and has since been corrected.

Regarding the seven cases currently listing a scheduled hearing date, three had
hearings scheduled in June 2010 because it is the hearing office’s practice to schedule
hearings approximately 3 months in advance. The remaining four had completed
hearings—two cases were issued decisions and two cases were still being finalized.
The completed hearings occurred in March and April 2010.

FIFO PRACTICES IN ODAR
We spoke to ODAR managers at the headquarters, regional, and hearing office level to
better understand practices in place. 20 Managers at ODAR Headquarters in Falls
Church, Virginia, told us that the organization focuses on processing cases on a FIFO
basis, which begins when the claimant initially files a request for hearing. ODAR
managers noted that the Commissioner’s Aged Case initiative is an example of the
Agency’s commitment to FIFO. 21 In our September 2009 report on aged cases,22 we
noted that the Aged Case initiative helped hearing offices refocus their efforts by
processing the oldest cases first, thereby returning to the FIFO process. 23 After

19
   The three cases were rescheduled for three different reasons: (1) the claimant failed to appear at the
original hearing; (2) the claimant was not available for the hearing; and (3) the claimant’s representative
requested a new hearing date.
20
   We interviewed ODAR Headquarters managers in Falls Church, Virginia, as well as regional managers
in the Chicago, Dallas and San Francisco Regions. We also interviewed hearing office managers at the
Orland Park, Illinois, Hearing Office in the Chicago Region; the McAlester, Oklahoma, Hearing Office in
the Dallas Region; and the Sacramento Hearing Office in the San Francisco Region.
21
  In FY 2010, ODAR plans to process all hearing cases that would have been 825 days or older by the
end of the FY. When the initiative started, the focus was hearing cases 1,000 days and older.
22
  SSA, Office of the Inspector General (OIG) report, Aged Cases at the Hearing Level (A-12-08-18071),
September 2009.
23
  We also noted in the report that ODAR’s managers said that (1) a lack of resources, (2) conflicting
priorities in the past, and (3) misplaced or time-consuming cases contributed to the backlog of aged
cases.



Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                             7
reviewing the results of our 55 case sample, ODAR management stated that a variance
in case processing time does not equate to a deviation from a FIFO policy.

In our discussions with ODAR regional and hearing office managers in three Regions,
we were told that some of the most common situations allowing hearing offices to
bypass FIFO relate to critical cases and remote hearing site dockets. 24 Remote docket
situations relate to hearing offices attempting to gather enough cases to fill an ALJ’s
docket for in-person hearings at remote sites, which may lead to cases being heard out
of order. We were also told of other situations contributing to departures from FIFO,
including incomplete or late case folders from the field offices as well as unique
situations, such as cases involving prisoners. 25

Regional and hearing office managers stated that hearing cases already in process may
be delayed because of difficulties in scheduling the necessary parties, which relates to
coordinating with multiple parties involved in the hearing as well as locating sufficient
hearing space. Locating hearing space is more complex when using VTC since two or
more locations may be required in different parts of the country. 26 Managers spoke of
other factors that may delay scheduling, including (1) extensive medical documentation
from a DDS office, (2) additional medical evidence on incoming cases, and (3) varying
productivity and scheduling styles among ALJs. 27

PLANNED IMPROVEMENTS
As part of our work, we reviewed ODAR’s initiatives aimed at improving operating
efficiency and eliminating the hearings backlog. Since 2007, ODAR has been working
to standardize and automate core operational activities through its electronic business
process (eBP) initiative. 28 One important goal of eBP is to automate hearing
scheduling, currently a manual process.

One noteworthy Agency improvement to the scheduling process was centralizing and
consolidating scheduling duties to as few people as possible at each hearing office.
ODAR is also developing a system, known as Judicial Automated Calendaring System
(JACS), to electronically schedule hearings. A third-party software application
developer, InfoCom, is currently in Phase 2 testing of this product, which ODAR expects
to pilot test in the near future. ODAR believes JACS has the potential to significantly

24
  ODAR maintains temporary and permanent remote sites nationwide. According to ODAR information,
approximately 40 percent of hearings involve remote sites and 20 percent of all hearings involve VTC.

25
     We provide more details on these matters in Appendix D.
26
     Id.
27
  We discussed the ALJ-specific issues in our August 2008 report, Congressional Response Report:
Administrative Law Judge and Hearing Office Performance (A-07-08-28094).

28
     Standardized Electronic Hearing Office Process, ODAR Website, updated April 2, 2010.



Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                       8
improve the ability to plan (and hold) more hearings by using an automated calendar
function to schedule hearing sites, witnesses, hearing reporters, and ALJs. 29

The eBP initiative also supports the Agency’s strategic use of VTC to schedule and hear
cases more timely by enabling ALJs to hold hearings faster while minimizing the need
for ALJ travel. VTC is also assisting with rebalancing workloads among ODAR’s
hearing offices and the NHCs. 30 Using the combined tools from eBP and VTC, ALJs
with excess hearing capacity can assume caseloads electronically from heavily
backlogged locations nationwide. 31

Finally, in November 2008, the Agency proposed policy changes for setting the time and
place for a hearing before an ALJ. 32 These changes were intended to increase ALJ
productivity by granting ODAR management direct scheduling authority in specific
situations where greater ALJ productivity is sought. ODAR informed us that the rule
was signed by SSA’s Commissioner on February 24, 2010, and is currently with the
Office of Management and Budget.




29
     SSA, OIG, ODAR Management Information (A-07-09-29162), August 2009.
30
 We discussed this flexibility as it pertains to older hearing cases in our September 2009 audit, Aged
Cases at the Hearing Level (A-12-08-18071).
31
  Update on Backlog Initiatives, http://www.ssa.gov/appeals/congressional-booklets.html (last visited
Feb. 26, 2010).
32
  Setting the Time and Place for a Hearing before an Administrative Law Judge, 73 Fed.Reg. 66564
(Nov. 10, 2008) (to be codified at 20 C.F.R. pts. 404, 406).


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                        9
                                                               Conclusions
A variety of factors contribute to the range of scheduled hearing dates among requests
for hearing received on the same date. In addition to ODAR allowing exceptions to
FIFO to address the most sensitive cases, the complex nature of the hearing process
and the variety of parties and locations involved create additional delays and
adjustments that can alter compliance with FIFO. Planned improvements and useful
management information, as well as expanded video and hearing office capacity in the
most hard-pressed regions, should contribute to a more predictable and efficient
processing of hearing cases.




Congressional Response Report: Scheduled Hearings (A-12-10-20154)                    10
                                         Appendices
APPENDIX A – Acronyms
APPENDIX B – Exceptions to the First In/First Out Policy for Hearings
APPENDIX C – Scope and Methodology
APPENDIX D – Factors That May Modify the First In/First Out Process




Congressional Response Report: Scheduled Hearings (A-12-10-20154)
                                                                     Appendix A

Acronyms
    ALJ               Administrative Law Judge

    eBP               Electronic Business Process

    DDS               Disability Determination Services

    FIFO              First in/First out

    FY                Fiscal Year

    HALLEX            Hearings, Appeals and Litigation Law

    JACS              Judicial Automated Calendaring System

    ME                Medical Expert

    NHC               National Hearing Center

    ODAR              Office of Disability Adjudication and Review

    OIG               Office of the Inspector General

    OTR               On-The-Record

    SSA               Social Security Administration

    VE                Vocational Expert

    VTC               Video Teleconferencing




Congressional Response Report: Scheduled Hearings (A-12-10-20154)
                                                                              Appendix B

Exceptions to the First In/First Out Policy for
Hearings
The Agency’s Hearings, Appeals and Litigation Law (HALLEX) Manual provides a
number of situations where the first in/first out (FIFO) method for processing hearing
cases can be altered (see Table B-1). 1

             Table B-1: Exceptions to FIFO When Processing Hearing Cases
                   Exception                                 Explanation
    Critical Case Designation               This is a case that involves a “critical”
                                            issue, including Terminal Illness, Military
                                            Service Casualty Cases, Compassionate
                                            Allowance, Dire Need, and
                                            Suicidal/Homicidal situations.
    Time-Limited Court Remand Cases         This is a case in which the court has
                                            ordered the Commissioner to complete a
                                            specific action(s) within a set period of
                                            time.
    Section 8001 Cases                      In these cases, the Appeals Council has
                                            assumed jurisdiction on its own motion of
                                            an administrative law judge’s (ALJ)
                                            favorable disability decision and remanded
                                            the cases for further proceedings. If
                                            certain timeframes are not (or have not
                                            been) met, SSA must pay the claimant
                                            interim benefits until the proceedings on
                                            remand have been completed.
    Delayed Court Remand Cases              This is a court remand case that is over
                                            125 days old (counting from the date of the
                                            court's order) or that the Appeals Council
                                            has remanded to an ALJ a second time.
    Other Court Remand Cases                This would be all other court remand
                                            cases not already cited above.
    Title XVI Non-Disability Claim Cases    The hearing decision must be issued
                                            within 90 days from the date of the request
                                            for hearing.




1
    SSA, HALLEX I-2-1-55—Assignment of Service Area Cases to Administrative Law Judges.


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                         B-1
                Exception                                     Explanation
 Disability Cessation Cases                   The case is handled promptly to avoid or
                                              minimize overpayments.
 Cases That Appear to Meet the Criteria       Based on hearing office staff review of the
 for Dismissal                                hearing request, the case appears to meet
                                              the Office of Disability Adjudication and
                                              Review’s (ODAR) criteria for dismissal.
 Cases in Which the Claimant has              The ALJ may determine, based on his or
 Waived the Right to an Oral Hearing          her examination of the record, that a
                                              hearing should be held despite the waiver.
 Cases in Which a Claimant has Waived A claimant's waiver of the right to regular
 His or Her Right to Regular Advance  advance notice indicates that he or she
 Notice of Hearing                    does not need advance notice to prepare
                                      for the hearing and desires a hearing as
                                      soon as possible. Therefore, if the hearing
                                      office staff can accommodate the claimant
                                      because of a cancellation by another
                                      claimant or any other reason, it should
                                      assign the case to an ALJ and schedule a
                                      hearing as soon as possible, without the
                                      usual advance notice.
 Appeals Council Remand               Appeals Council remands, including those
                                      generated by the courts, are assigned to
                                      the same ALJ who issued the decision or
                                      dismissal unless
                                          a. the case was previously assigned to
                                              that ALJ on a prior remand from the
                                              Appeals Council and the ALJ's
                                              decision or dismissal after remand
                                              is the subject of the new Appeals
                                              Council remand or
                                          b. the Appeals Council or the court
                                              directs that the case be assigned to
                                              a different ALJ.




Congressional Response Report: Scheduled Hearings (A-12-10-20154)                     B-2
                                                                         Appendix C

Scope and Methodology
To achieve our objectives, we:

   •   Reviewed applicable laws and Social Security Administration (SSA) policies and
       procedures.

   • Reviewed prior Office of the Inspector General reports.

   • Identified three Office of Disability and Adjudication Review (ODAR) regions to
     assess the scheduling process. We used three criteria to identify locations to
     visit: (1) regional distribution, (2) pending workloads, and (3) hearing office size.
     For example, we selected one small (less than seven administrative law judges
     [ALJ]), one medium (seven or eight ALJs), and one large hearing office (more
     than eight ALJs). We selected the following offices

        McAlester, Oklahoma, Hearing Office (small office with 3 ALJs) – Dallas
         Region;
        Orland Park, Illinois, Hearing Office (medium office with 8 ALJs) – Chicago
         Region; and
        Sacramento, California, Hearing Office (large office with 14 ALJs) – San
         Francisco Region.

   • Using a workload report from ODAR’s Disability Adjudication Reporting Tool, we
     identified cases in each Region that had a request for hearing date during the first
     2 weeks of October 2009 and identified the date during the 2-week period with
     the most requests for a hearing. We determined that October 13, 2009 met these
     criteria.

   • Analyzed the selected hearing cases using information in ODAR’s Case
     Processing and Management System.

   • Interviewed managers in ODAR Headquarters, regional offices, and hearings
     office at the selected locations to discuss first in/first out, the scheduling process,
     and the status of selected hearing cases.

We conducted our review during April 2010 in Falls Church, Virginia. The principle
entity audited was the Office of the Associate Commissioner of Disability Adjudication
and Review. We conducted our review in accordance with the Council of the Inspectors
General on Integrity and Efficiency’s Quality Standards for Inspections.


Congressional Response Report: Scheduled Hearings (A-12-10-20154)
                                                                                  Appendix D

Factors That May Modify the First In/First Out
Process
In our discussions with Office of Disability Adjudication and Review (ODAR) regional
and hearing office managers in three Regions, 1 we learned of a number of factors that
may impact the first in/first out (FIFO) policy as well as the overall processing of hearing
cases. Some of the scenarios we discussed with managers are provided below.

Remote Hearing Site Dockets: Remote docket situations relate to hearing offices
attempting to gather enough cases to fill an administrative law judge’s (ALJ) docket at a
remote hearing site. While the majority of cases are heard at a local hearing office,
many hearings are held at remote sites where the ALJ may need to travel for an in-
person hearing if video teleconferencing is not available. According to the San
Francisco regional management team, a hearing office may need to bypass the FIFO
process and move newer cases ahead of those that were received earlier to fill an ALJ’s
docket. 2 Conversely, a newer case may bypass an older case as claimants await an
ALJ visiting the remote site.

Incomplete and Late Folders: Hearing offices continue to receive both incomplete
and late cases from field offices. All three regional management teams we spoke to
said they are working in their Regions to improve communications between the field
offices and hearing offices to quickly identify these cases and minimize future
occurrences. In our September 2009 audit, 3 we noted similar problems and were
provided with a list of 721 cases that were already old when they arrived at the hearing
office—the average age of these cases was 833 days.

Prison Cases: Hearing cases involving prisoners often create delays. For example,
cases might be scheduled out of FIFO order for prisoners because (1) the prison may
lack video technology, so in-person hearings may be delayed as with other remote
sites, (2) claimants may protest prison policies requiring guards at telephone hearings;
and (3) claimants may be transferred from one facility to another, leading to months of
delay before the hearing can be rescheduled.


1
  We interviewed regional managers in the Chicago, Dallas, and San Francisco Regions. We also
interviewed hearing office managers at the Orland Park, Illinois, Hearing Office in the Chicago Region;
the McAlester, Oklahoma, Hearing Office in the Dallas Region; and the Sacramento Hearing Office in the
San Francisco Region.
2
 To be cost-effective when sending an ALJ to a remote site, the hearing office must assemble a docket of
30 to 40 cases.
3
 Social Security Administration, Office of the Inspector General report, Aged Cases at the Hearing Level
(A-12-08-18071), September 2009.


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                    D-1
Scheduling Multiple Parties/Conflicting Schedules: Regional and hearing office
managers stated that hearing cases already in process may be delayed due to
difficulties in scheduling the necessary parties. For example, hearing offices need to
ensure the availability of the ALJ, the claimant and the claimant’s representative, the
hearing reporter, and, if needed, a translator, a medical expert (ME), and a vocational
expert (VE). Any party may cancel at the last minute, creating a need to reschedule the
hearing and potentially resulting in months of delay if the ALJ already has a full
schedule. 4 According to the Dallas regional management team, the three hearing
offices in the greater Dallas area sometimes find they are trying to schedule the same
MEs and claimant representatives simultaneously, leading to scheduling conflicts and
delays. In other cases, MEs will request a delay until they can be assigned to more
than one case since it may not be cost effective to attend a single hearing. In such
situations, the Dallas area hearing offices may need to bypass FIFO and identify
additional cases that require a particular ME’s expertise.

Transferred Cases: Greater scheduling complexities can be introduced when cases
are transferred from one Region to another. For example, the Dallas and San
Francisco Regions receive cases transferred from the Chicago Region, which has a
large backlog of cases while new hearing offices are being built. 5 According to the
Regional managers, the assisting hearing offices have to go through extra steps to
schedule the video hearings since schedulers need to ensure that at least two hearing
rooms are available, one at each site, often in different time zones.




4
  Not only are the ALJ dockets filled months in advance, hearing offices must also comply with the
required 20-day notice sent to the claimant and claimant representative.
5
  In our December 2009 report, The Office of Disability Adjudication and Review's Staffing Plans Under
the American Recovery and Reinvestment Act (A-12-09-29140), we noted that ODAR was establishing
13 additional hearing offices in FY 2010, as well as satellite offices.


Congressional Response Report: Scheduled Hearings (A-12-10-20154)                                    D-2
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                           Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations (OI),
Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                   Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues of
concern to SSA, Congress, and the general public.
                                             Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State, and
local law enforcement agencies.
                              Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes, regulations,
legislation, and policy directives. OCIG also advises the IG on investigative procedures and techniques, as well as
on legal implications and conclusions to be drawn from audit and investigative material. Also, OCIG administers
the Civil Monetary Penalty program.
                                          Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases and
in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for those
seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal and
external organizations, and responds to Congressional correspondence.
                            Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates OIG’s
budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the focal point
for OIG’s strategic planning function, and the development and monitoring of performance measures. In addition,
OTRM receives and assigns for action allegations of criminal and administrative violations of Social Security laws,
identifies fugitives receiving benefit payments from SSA, and provides technological assistance to investigations.
